              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report
Internal Controls Over Sensitive
Compartmented Information Access
for Selected Field Intelligence
Elements




DOE/IG-0796                                   July 2008
INTERNAL CONTROLS OVER SENSITIVE COMPARTMENTED
INFORMATION ACCESS FOR SELECTED FIELD
INTELLIGENCE ELEMENTS



TABLE OF
CONTENTS


              OVERVIEW

              Introduction and Objective     1

              Observations and Conclusions   2


              DETAILS OF FINDINGS

              Background                     3

              Database Issues                3

              Improper Facility Access       4

              Los Alamos SCI Access
              Authorization Termination      6


              RECOMMENDATIONS                7


              MANAGEMENT COMMENTS            7


              INSPECTOR COMMENTS             7


              APPENDICES

              A. Scope and Methodology       8

              B. Prior Reports               9

              C. Management Comments         10
Overview

INTRODUCTION    As a member of the U.S. Government’s Intelligence Community,
AND OBJECTIVE   the Department of Energy (DOE) serves as the premier technical
                intelligence resource in the areas of nuclear weapons,
                nonproliferation, energy, science, and technology, as well as
                emerging nuclear threats. In addition to providing intelligence
                analyses, DOE offers specialized technology and operational
                support to both intelligence and law enforcement agencies.

                DOE accomplishes its intelligence mission by drawing from
                technical expertise located throughout the Department complex,
                including the national laboratories. This necessitates
                Department-affiliated personnel having access to sensitive
                compartmented information (SCI), which is a designation given to
                classified information derived from intelligence sources, methods,
                or analytical processes that are required to be handled through
                designated access control systems.

                DOE’s Office of Intelligence and Counterintelligence is
                responsible for granting SCI access authorization to DOE-affiliated
                personnel who need access to intelligence information.
                Individuals must have an active Top Secret or “Q” clearance to be
                granted and maintain SCI access authorization. The Office of
                Intelligence and Counterintelligence maintains an SCI personnel
                database called Lockbox. This database directly “feeds” into and
                supports the official national SCI personnel database. The Office
                of Inspector General recently completed an inspection of internal
                controls associated with the 969 individuals on a DOE
                Headquarters SCI access roster. We identified issues with
                (1) individuals who had left the Department or had been debriefed
                from the SCI program remaining on the Department’s SCI roster
                and (2) the execution of debriefing responsibilities by the Office of
                Intelligence and Counterintelligence.

                To complement this inspection, we initiated a review of local Field
                Intelligence Elements that the Office of Intelligence and
                Counterintelligence maintains at several DOE sites in support of its
                intelligence mandate. These field sites have local SCI personnel
                databases, as well as local databases to control physical access
                systems, e.g., badge readers, for local SCI facilities. The objective
                of the inspection was to determine the adequacy of internal
                controls over access to intelligence information at two of these
                Field Intelligence Elements, Los Alamos National Laboratory



Page 1                                    Internal Controls Over Sensitive
                                          Compartmented Information Access
                                          for Selected Field Intelligence
                                          Elements
                   (Los Alamos) and Sandia National Laboratories (Sandia).
                   According to Lockbox, as of October 1, 2007, there were 2,361
                   DOE SCI access holders at these facilities: 856 at Los Alamos and
                   1,505 at Sandia.

OBSERVATIONS AND   We concluded that the Office of Intelligence and Counterintelligence
CONCLUSIONS        and the subordinate Field Intelligence Elements at Los Alamos and
                   Sandia did not have adequate administrative internal controls over
                   their databases used to track SCI access authorizations. Based on
                   our comparison of Lockbox and four local databases containing the
                   names, authorizations, and facility accesses of Los Alamos and
                   Sandia SCI access holders, we found that:

                   •   The SCI personnel databases used by the Office of Intelligence
                       and Counterintelligence, Los Alamos, and Sandia contained
                       numerous errors, including incorrect database entries and
                       failures to update information relevant to SCI access, which
                       could lead to security incidents such as the one described
                       below;

                   •   An individual physically accessed a Los Alamos SCI facility
                       without escort after her SCI access authorization was
                       terminated. Further, Los Alamos Field Intelligence Element
                       officials did not report the security incident to the required
                       Office of Intelligence and Counterintelligence official; and,

                   •   The Los Alamos Field Intelligence Element had not terminated
                       the SCI access authorizations of 13 individuals whose
                       personnel security clearances had been terminated up to 10½
                       months previously.

                   We note that in addition to the previously cited review of internal
                   controls over SCI access authorizations on a DOE Headquarters
                   access roster, other past reviews by the Office of Inspector General
                   at Los Alamos and Sandia identified weaknesses in the internal
                   controls intended to ensure that security clearances and access
                   authorizations were terminated appropriately and expeditiously. A
                   list of the associated reports is located at Appendix B.




Page 2                                               Observations and Conclusions
Details of Findings

BACKGROUND            Individuals entering one or more SCI programs go through a series
                      of in-processing actions. These actions are outlined in Director of
                      Central Intelligence Directive (DCID) No. 6/1 (previously 1/19),
                      “Security Policy for Sensitive Compartmented Information and
                      Security Policy Manual.” They include being sponsored, being
                      administratively reviewed and approved by Office of Intelligence
                      and Counterintelligence officials, receiving one or more video
                      briefs, and reviewing Form 4414 (EF), “Sensitive Compartmented
                      Information Nondisclosure Agreement.” After reviewing the form,
                      the individual signs and dates it to acknowledge an understanding
                      of his/her security responsibilities. The individual also signs and
                      dates the “Brief” block acknowledging receipt of the required
                      briefings. DCID 6/1 states “Failure to sign an NdA [Nondisclosure
                      Agreement] is cause for denial or revocation of existing SCI
                      access. The NdA establishes explicit obligations on both the
                      government and the individual signer for the protection of SCI.”

                      When an individual no longer requires SCI access, the individual is
                      to be debriefed on his/her continuing responsibility to safeguard
                      SCI information. The individual then reviews the SCI
                      Nondisclosure Agreement form and signs and dates the form in the
                      “Debrief” block. The individual’s SCI access authorization is
                      considered to be terminated at this point.

                      We reviewed five databases. Los Alamos’ and Sandia’s local
                      personnel databases were compared with Lockbox to determine if
                      information relating to individuals with SCI access authorizations was
                      accurate and consistent. The remaining two databases were associated
                      with Los Alamos and Sandia SCI facility physical access systems and
                      were reviewed to verify that personnel who were recently debriefed
                      had not gained unescorted access to Laboratory SCI facilities.

DATABASE ISSUES       We found that the SCI personnel databases used by the Office of
                      Intelligence and Counterintelligence, Los Alamos, and Sandia
                      contained numerous errors, which could lead to security incidents
                      such as the one described in the next section. Specifically, we
                      identified 103 errors in Lockbox and local Los Alamos and Sandia
                      personnel SCI access databases, including incorrect database entries
                      and failures to update information relevant to SCI access. Of these
                      identified errors:

                         •   Six of the Lockbox errors were individuals who still had
                             active SCI access authorizations even though they had been
                             formally debriefed from SCI programs;



Page 3                                                             Details of Findings
                       •   Twenty of the Lockbox errors were individuals who were not
                           entered, some for prolonged periods of time, to show that
                           they were authorized to access SCI information;

                       •   In several instances, Lockbox data boxes were inaccurately
                           checked, preventing parties/organizations external to the
                           Office of Intelligence and Counterintelligence from viewing
                           the correct status of an individual’s actual SCI access
                           authorization; and,

                       •   In some instances, the local databases contained inaccurate
                           entries. For example, both Sandia and Los Alamos had wrong
                           debriefing dates, and Sandia had instances where individuals
                           whose SCI access requests had been denied or cancelled
                           showed as being “Active” in the local SCI personnel database.
                           (We did not find any evidence that any of these individuals
                           had been SCI briefed or given unauthorized access to SCI
                           information.)

                    We were told that some of these errors occurred when the Office of
                    Intelligence and Counterintelligence combined four separate
                    databases into one, Lockbox, in November 2006. We determined
                    that Sandia submitted corrections in August 2007 and Los Alamos
                    in October 2007. On December 4, 2007, we found that not all of
                    the corrections had been made by the Office of Intelligence and
                    Counterintelligence. However, at the conclusion of our inspection,
                    all database issues had been corrected at all three locations.

                    In discussing the accuracy of Lockbox with an Office of Intelligence
                    and Counterintelligence senior official, we were told that the office
                    had experienced a 300 percent increase in workload the last 2 years
                    with no increase in manpower. We were told that this had led to
                    delays with inputting SCI access information, delays in correcting
                    identified errors, and an inability to perform sufficient quality
                    assurance/control on the database.

IMPROPER FACILITY   We also found that an individual physically accessed a Los Alamos
ACCESS              SCI facility without escort after her SCI access authorization was
                    terminated. Further, Los Alamos Field Intelligence Element
                    officials did not report the security incident to the required Office
                    of Intelligence and Counterintelligence official.

                    On November 5, 2007, during our review of the Los Alamos SCI
                    facility physical access system, we discovered that an individual who



Page 4                                                            Details of Findings
         was debriefed from the SCI program on November 8, 2006, gained
         unescorted access to a Los Alamos SCI facility on November 9,
         2006, contrary to DOE policy. Procedures are supposed to be
         established to remove “an individual’s authorization to enter an area
         when the individual is transferred, terminated, or the individual’s
         access is suspended, revoked, or downgraded to a level below that
         required for entry.” We immediately reported this previously
         undiscovered incident to Los Alamos officials. We were told that a
         Los Alamos Field Intelligence Element official subsequently
         initiated a telephonic conversation with the former employee.
         Reportedly, the individual told this official that she had returned to
         complete out-processing documentation. Another Los Alamos Field
         Intelligence Element official determined that the individual was able
         to gain access because her badge access authorization was not
         immediately removed from the Element’s SCI facility physical
         access system. Her facility access was not terminated until
         November 13, 2006, and no one had reviewed whether she had
         accessed the facility in the intervening period of time.

         We also determined that the Office of Intelligence and
         Counterintelligence Special Security Officer had not been
         informed of the security incident by the Los Alamos Field
         Intelligence Element, as required. After the Office of Inspector
         General identified the issue to the Special Security Officer, the
         Office of Intelligence and Counterintelligence requested additional
         information from Los Alamos. Los Alamos subsequently reported
         to the Special Security Officer that the security lapse occurred due
         to a series of events, to include the checklist executed for departing
         employees being reviewed and initialed as completed prior to
         collection of the employee’s badge and deactivation of the
         employee’s access in the badge reader system.

         On January 14, 2008, the Office of Intelligence and
         Counterintelligence received an e-mail from Los Alamos stating
         that action was taken to ensure that no item on the checklist
         executed for departing employees is initialed as completed until
         the action has actually been completed. Based on this notification,
         the Office of Intelligence and Counterintelligence official said that
         all required actions had been completed.




Page 5                                                  Details of Findings
LOS ALAMOS      Finally, we found that the Los Alamos Field Intelligence Element
SCI ACCESS      had not terminated the SCI access authorizations of 13 individuals
AUTHORIZATION   whose personnel security clearances had been terminated up to
TERMINATION     10½ months previously. This appeared to be the result of the
                Element not having an effective means of being kept apprised of
                employee and personnel security clearance terminations.
                Specifically, the Element only had limited coordination with the Los
                Alamos entities handling employee and personnel security clearance
                terminations. In contrast, we noted that the Sandia Field Intelligence
                Element had taken actions to improve its integrated controls by
                establishing daily coordination with Sandia’s Human Resources
                organization.

                We also observed that this condition has the potential to result in the
                over-use of “administrative debriefings” by the Element.
                Administrative debriefings, which entail an authorized official
                annotating the SCI Nondisclosure Agreement with “Unavailable for
                Signature/Administrative Debrief,” are only supposed to be used
                when all means to properly inform an individual of his/her
                continuing SCI access responsibilities have failed. The overuse of
                administrative debriefings has been cited in previous Office of
                Inspector General reports. We identified seven administrative
                debriefings at Los Alamos during this current review. Los Alamos
                contended that it only executed an administrative debriefing when it
                had exhausted identified methods to contact the individual to obtain
                a signature. While this may be true, we believe that Los Alamos
                might have more success actually debriefing individuals if it had
                more timely notification of individuals’ departure.

                A Los Alamos Field Intelligence Element official acknowledged
                that a week or a month could pass without his office being notified
                concerning the termination of an employee who had SCI access.
                He said that sometimes his office was not even notified of an
                individual’s death. He also acknowledged that there were other
                Laboratory organizations that could assist with this issue. We
                believe that the Los Alamos Field Intelligence Element should
                coordinate with appropriate Laboratory organizations, such as the
                Human Resources and Personnel Security offices, in order to
                strengthen internal controls over SCI access authorizations.




Page 6                                                         Details of Findings
RECOMMENDATIONS   We recommend that the Director, Office of Intelligence and
                  Counterintelligence, ensures that:

                  1. SCI access authorization information is processed in Lockbox
                     in an accurate, timely, and complete manner.

                  2. Lockbox and local databases are subjected to a periodic quality
                     assurance/control regimen.

                  3. Los Alamos Field Intelligence Element officials receive
                     refresher training concerning security incidents, with specific
                     emphasis on security incident reporting.

                  4. The Los Alamos Field Intelligence Element establishes
                     procedures with other Laboratory organizations to obtain
                     timely notification concerning the termination of Laboratory
                     personnel and personnel security clearances in order to ensure
                     the timely termination of SCI access authorizations and
                     minimize administrative debriefings.

MANAGEMENT        In comments on a draft of this report, the Office of Intelligence and
COMMENTS          Counterintelligence concurred with the report recommendations.
                  Management identified corrective actions that have been or will be
                  taken to address our recommendations. Management’s comments
                  are included in their entirety at Appendix C.

INSPECTOR         We consider management’s comments to be generally responsive
COMMENTS          to our recommendations.




Page 7                                                    Recommendations
                                         Management and Inspector Comments
Appendix A

SCOPE AND     We conducted our inspection fieldwork between September and
METHODOLOGY   December 2007. We looked at the Field Intelligence Elements that
              were administered in association with Los Alamos and Sandia.
              We interviewed officials from the Office of Intelligence and
              Counterintelligence, Los Alamos, and Sandia regarding DOE and
              local SCI-related policy, standard operating procedures, paper
              files, and electronic databases. We reviewed applicable Director
              of Central Intelligence; National Nuclear Security Administration
              Service Center; Office of Intelligence and Counterintelligence; and
              Laboratory policies, procedures, electronic databases, and paper
              files.

              We also compared five databases, three concerning SCI personnel
              access authorizations and two concerning physical access to SCI
              facilities; reviewed relevant Field Intelligence Element-related SCI
              personnel data entries; and in the case of SCI facility access,
              conducted a judgmental sample involving recently debriefed SCI
              access authorized personnel. At Los Alamos, we reviewed 76 of
              143 database files concerning SCI debriefed individuals and SCI
              facility access; and at Sandia, 100 of 195. During our inspection,
              we observed operations at Los Alamos and Sandia National
              Laboratory-New Mexico SCI facilities, and we reviewed data for
              both of these sites as well as for Sandia National Laboratory-
              California.

              Also, pursuant to the “Government Performance and Results Act
              of 1993,” we determined the Los Alamos and Sandia contractual
              performance measure processes did not address access control
              issues relating to the Field Intelligence Elements or their
              operations. However, the Office of Intelligence and
              Counterintelligence and DOE’s Office of Independent Oversight
              evaluate a number of physical security topics that relate to Field
              Intelligence Element operations.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 8                                                Scope and Methodology
Appendix B

PRIOR REPORTS   The following Office of Inspector General reports involved work related
                to this inspection:

                •    “Office of Intelligence and Counterintelligence Internal Controls
                     Over the Department of Energy’s Sensitive Compartmented
                     Information Access Program” (DOE/IG-0790, March 2008);

                •    “Badge Retrieval and Security Clearance Termination at Sandia
                     National Laboratory-New Mexico” (DOE/IG-0724, April 2006);
                     and,

                •    “Security and Other Issues Related to Out-Processing of
                     Employees at Los Alamos National Laboratory” (DOE/IG-0677,
                     February 2005).




Page 9                                                                   Prior Reports
Appendix C




Page 10      Management Comments
Appendix C




Page 11      Management Comments
Appendix C




Page 12      Management Comments
Appendix C




Page 13      Management Comments
                                                                    IG Report No. DOE/IG-0796



                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report, which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page

                                     http://www.ig.energy.gov

   Your comments would be appreciated and can be provided on the Customer Response Form
                                  attached to the report.
